"Medicaid Pharmacy - Actual Acquisition Cost of Brand Name Prescription
Drug Products,"(A-06-00-00023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Pharmacy - Actual Acquisition Cost of Brand Name Prescription
Drug Products," (A-06-00-00023)
August 10, 2001
Complete
Text of Report is available in PDF format (557 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that significant savings could be realized on prescription
drugs reimbursed by States under the Medicaid program.  Most States use average
wholesale price (AWP) minus a percentage discount as a basis for reimbursing pharmacies
for brand name drug prescriptions.  This discount averaged about 10.31 percent
nationally in 1999. We believe it is not a sufficient discount to ensure that reasonable
prices are paid for drugs. Our review of pricing information from 216 pharmacies
in 8 States estimated that pharmacy actual acquisition cost nationwide averaged
21.84 percent below AWP in 1999. For the 200 brand name drugs with the greatest
amount of Medicaid reimbursement in 1999 we calculated that as much as $1.08 billion
could have been saved if reimbursement had been based on a 21.84 percent average
discount from AWP. Our review was limited to ingredient acquisition costs and did
not address other areas such as the cost of dispensing the drugs. Generally, States
pay retail pharmacies for their dispensing action separately from the reimbursement
for the prescription drug. We recommended that the Centers for Medicare and Medicaid
Services (CMS) require the States to bring pharmacy drug reimbursement more in
line with the actual acquisition cost of brand name drugs. The CMS agreed that
an accurate acquisition cost should be used to determine drug reimbursement and
will encourage States to review their estimates of acquisition costs in light of
our findings.